9

A

I

/
$

IN THE SUPREME COURT OF THE UNITED STATES
ANTHONY A. PATEL, an
individual,

) U.S. Supreme Court (CasHW>o>s court, us
r
filed
)

MAR t< J 202)

)

Plaintiff and Appellant,

) Supreme Court of California Court
) Case Number: S2639u9 ~ °FTHECLER;

vs.

)

)
REGENTS OF THE UNIVERSITY )
OF CALIFORNIA, a public entity, )
)
Defendant and Respondent. )

California Court of Appeal Case
Number: B289869
Superior Court of California (County
of Los Angeles) Case: BC548778

Petition Seeking Relief from Denial of Review by
The California Supreme Court
(dated: October 14, 2020)

PETITION FOR WRIT OF CERTIORARI

Anthony A. Patel
553 N. Pacific Coast Hwy.,
Suite B-522
Redondo Beach, CA 90277
Phone: (424) 350-0123
Fax: (310) 943-3829
Email:tony@tonypatel.com
Plaintiff and Appellant
In Propria Persona
1
Petition for Writ Certiorari

QUESTIONS PRESENTED FOR REVIEW
1.

Does the U.S. Constitution permit the State of

California to misdiagnose an American Citizen as Suffering from
a Mental Disorder for supporting President Trump as the Article
II Executive Officer from January 20, 2017 to January 20, 2021?
2.

Can State actors label U.S. Citizens as mentally ill

when individuals offer bipolar support for President Obama and
President Trump from January 20, 2009 to January 20, 2021?
3.

Do judicial officers have the power to prevent U.S.

Citizens from adhering to the Inaugural Addresses of President
Biden and Vice President Harris?
4.

Do California residents who supported our 45th

president forfeit their rights to due process and the equal
protection of the laws under our Constitution?
5.

May States intentionally mislabel mental intelligence

as a mental illness without duty or obligation to correct errors?
6.

Is running for Congress in 2014 instead of practicing

law a mental illness in a Nation in which Bipolar Voters flip-flop
in how they awarded 306 electoral votes from 2016 to 2020?
7.

May the California legal system presume that the

best interests of minor children benefit most from their biological
fathers being absent from their lives?
8.

Can a State misdiagnose an attorney as bipolar

disorder for seeing two sides of issues and reasoning both views?
9.

May intellect be deemed illness in our legal system?

10.

Why is it wrong in California to show basic respect

for federal judges who were appointed by President Trump?
2

Petition for Writ Certiorari

LIST OF PARTIES
ANTHONY A. PATEL, an individual, Plaintiff and Appellant.
REGENTS OF THE UNIVERSITY OF CALIFORNIA, a public
entity, Defendant and Respondent.

3

Petition for Writ Certiorari

CORPORATE DISCLOSURE STATEMENT
I, Anthony A. Patel, do hereby certify that there are no
publicly-held companies or corporations as interested entities or
persons to list in this Statement.
The State of California is an interested party as it relates
to the REGENTS OF THE UNIVERSITY OF CALIFORNIA.

0^

DATED: March 11, 2021

Anthony A. Patel
Plaintiff and Appellant
In Pro Per

4
Petition for Writ Certiorari

LIST OF PROCEEDINGS

Anthony A. Patel vs. Regents of The University of
California, Supreme Court of California Court, Docket Case
Number: S263959. Date of Entry of Order Denying Petition for
Review: October 14, 2020.

Anthony A. Patel vs. Regents of The University of
California, California Court of Appeal, Docket Case Number:
B289869. Date of Appellate Opinion: July 6, 2020.

Anthony A. Patel vs. Regents of The University of
California, Superior Court of California (County of Los Angeles)
Docket Case Number: BC548778. Date of Appealable Judgment:
April 24, 2018.

5

Petition for Writ Certiorari

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW

2

LIST OF PARTIES

3

CORPORATE DISCLOSURE STATEMENT

4

LIST OF PROCEEDINGS

5

TABLE OF CONTENTS

6

TABLE OF AUTHORITIES

7

JURISDICTIONAL STATEMENT

8

LEGAL ISSUES IN THIS CASE

9

STATEMENT OF FACTS
STATEMENT OF CASE
REASONS IN SUPPORT OF WRIT

10

ARGUMENT

13

SUMMATION

14

APPENDIX:
Order of California Supreme Court (October 14, 2020)
Opinion of California Court of Appeal (July 6, 2020)

6
Petition for Writ Certiorari

11
12

TABLE OF AUTHORITIES
Page
Case Law
Boddie v. Connecticut, 401 U.S. 371 (1971)

9

Bush v. Gore, 531 U.S. 98 (Dec. 12, 2000)

9

Texas v. Pennsylvania etal., 592 U.S.

(Dec. 11,2020)

9

Court Rules
Rules of The United States Supreme Court
Rule 10

13

Rule 12

13

Statutory Law
42 U.S.C. § 1983

9

42 U.S.C. § 1985

9

Constitutions and Treatises
U.S. Declaration of Independence

passim

United States Constitution

passim

Article I

passim

Article II

passim

Article III

passim

Bill of Rights (Amendments 1 & 5)

passim

Fourteenth Amendment

passim

Governing International Legal Principles
Universal Declaration of Human Rights

9

United Nations Charter

9

7
Petition for Writ Certiorari

JURISDICTIONAL STATEMENT
The jurisdiction of the U.S. Supreme Court is proper in this
case as the petition for review in this proceeding was denied by
the California Supreme Court on October 14, 2020. Under this
Court’s current extended deadlines during the Covid-19
pandemic, the deadline to file this instant petition for a writ of
certiorari is 150 days.
This petition flows directly from denial of review by a state
court of last resort on October 14, 2020. Thus, this Court’s final
jurisdiction is customary and proper in such cases which arise
from state courts.
As this Court may be aware, U.S. voters elected a bipolar
outcome in the 2016 and 2020 elections, namely flip-flopping
from awarding 306 electoral votes to President Trump in 2016 to
awarding 306 electoral votes to President Biden in 2020.
California courts treat Patel’s mental cognition and bipolar
understand of this reality as a mental illness - however, the
highest U.S. voter-eligible turnout in 120 years is not a mental
illness. Rather, the realities of the elections of 2016/2020 suggests
that California government agencies and California courts have
some form of mental disorder which they thrust upon Patel.
Voters from coast-to-coast and in Hawaii and Alaska
appear to march to their own tunes rather than the errors of
California courts. Hence, the jurisdiction of this U.S. Supreme
Court is critically necessary to help remind judges in California,
starting with the Chief Justice of the California Supreme Court,
as to the chain-of-command in the U.S. Legal System since 1865.
8
Petition for Writ Certiorari

LEGAL ISSUES IN THIS CASE
Respondents misattribute the mental condition of Bipolar
U.S. Voters in the 2016/2020 presidential elections to Patel as a
form of mental illness. Bush v. Gore, 531 U.S. 98 (Dec. 12, 2000).
Rather, the recent decision of this venerable U.S. Supreme Court
suggests that the California Supreme Court and inferior California
judges may have some form of an intellectual disorder. Texas v.
Pennsylvania et ah, 592 U.S.

(Dec. 11, 2020). This problem

stems from Bhatia’s divorce in which California courts presume that
divorced fathers are ill and children are best suited for single mothers.
Boddie v. Connecticut, 401 U.S. 371 (1971).
The principal legal issues in this case include the following:
Federal civil rights: 42 U.S.C. § 1983 and 42 U.S.C. § 1985.
Fourteenth Amendment to the U.S. Constitution.
First and Fifth Amendments to the U.S. Constitution
Due Process Clause of the U.S. Constitution.
Equal Protection Clause of the U.S. Constitution.
U.S. Declaration of Independence (as interpretive text
underlying Preamble and specific text of the U.S. Constitution).
The inherent power of the U.S. Supreme Court to control
proceedings pursuant to Article III of the U.S. Constitution.
Judicial Power of the United States under the U.S.
Constitution to ensure States comply with the supremacy of
Articles I and II of the U.S. Constitution.
Supremacy Clause under the U.S. Constitution.
Universal Declaration of Human Rights (UDHR).
United Nations Charter (1945).
9
Petition for Writ Certiorari

STATEMENT OF FACTS
Appellant Anthony A. Patel (“Patel”) is a lawyer educated
at Berkeley and Harvard and admitted to the State Bar of
California in 1999. He became friends with California lawyer
Sonya Bhatia (“Bhatia”) from Pepperdine. On Labor Day
weekend 2006, Patel proposed marriage to Bhatia on the
footsteps of the United States Supreme Court. She accepted.
They married later that year and then had two children.
In 2012, Patel (who was in private practice as an attorney)
wanted to enter public service. He made preparations in 2013 in
hopes of running for Congress in southern California. In June
2013, Bhatia and her family asked Patel to come to the UCLA
Emergency Room because Bhatia was suffering from a nervous
breakdown due to Patel’s plans to run for elected office in 2014.
When Patel arrived out of concern for Bhatia, UCLA staff instead
wrongly apprehended Patel and labeled him a mentally ill
patient. Bhatia cited Patel’s bipolar political views. She also
explained to UCLA that her parents had split up when she was a
young child and her father was mentally ill because she had no
relationship with him. UCLA staff misdiagnosed Patel as ill.
Patel field for a divorce from Bhatia the following month in
July 2013 (the parties are now divorced). In the dissolution
matter, Bhatia noted that Patel suffered from this bipolar mood
disorder. As a result, Patel has now lost all contact with his
minor children. In addition, Patel’s legal career and any ability to
function in public service have been eviscerated. The Respondent
(University of California Regents) adheres to this false diagnosis.
10
Petition for Writ Certiorari

STATEMENT OF CASE
Patel sued Respondent in California state court (BC548778)
for violating his federal civil rights. In a lawsuit commenced in
June 2014, Patel asserted a variety of claims stemming from
being wrongly held as a patient at UCLA in 2013 and resulting
misdiagnosis. A copy of this misdiagnosis was also improperly
shared by UCLA with Bhatia by UCLA without Patel’s consent.
In the trial court, the case was transferred just before trial
in 2018 to Judge Laura Ellison. Judge Ellison wrongly informed
the jury about Patel’s mental condition which prejudiced jurors.
She also deleted most of Patel’s case on the grounds of a non-suit,
allowing only a sole state claim for privacy violations to proceed
to a jury. On that sole claim before the jury, Judge Ellison
expressed her own “concerns” that Patel’s former wife loved him
and cared about him. Judge Ellison’s own bias and prejudice were
clear. The jury deferred to the judge and found for Respondents.
Patel appealed to the California Court of Appeal (B289869).
The Court of Appeal would not consider the substance of the
arguments on appeal, entering an order in July 2020 affirming.
At oral argument, Patel expressed frustration to the effect that:
“if we can’t deal with Americans being able to support both
President Obama and President Trump, then what can we ever
get right in this Country?” - the Court of Appeal was unmoved by
Patel’s calls for Unity. However, President Biden and Vice
President Harris appear to have now picked up on that theme in
the Inaugural Addresses of January 20, 2021. Yet, California
courts are still unfairly biased against President Trump’s voters.
11
Petition for Writ Certiorari

REASONS IN SUPPORT OF WRIT
The reasons for the writ stem directly from The Chief
Justice (Tani Cantil-Sakauye) of the California Supreme Court
and all of her many dutybound subordinates - all of whom
constitute the California Judiciary. In the 245 years since our
Nation was originally founded on July 4, 1776, no set of State
judges has ever so brazenly and ruthlessly attacked both our
democracy and the Republic which safeguards liberty and justice
for all Americans.
These California judges have personally attacked President
Trump’s judicial appointments. They have mocked Justice
Kavanaugh. They have degraded Justice Barrett. They have
repeatedly insulted Justice Gorsuch. Simply because these
justices and countless others in the federal judiciary were
appointed by the individual whom they still continue to hate
most in the world - former President Donald J. Trump.
Respondents misdiagnose and mislabel Patel as mentally
ill because he is intelligent enough to know the law. Because
Patel asks for California courts to fairly and properly apply the
law, Respondents continue to harm Patel and cause him injury.
Patel has lost his ability to serve our country in public service, he
has been denied access to his legal career in California and he
has lost all contact with his two minor children. All of that is
merely the price of a former Democrat (like Patel) having the
basic courage to disagree with the orthodox views of the
California Democratic Party and its Statewide apparatus of
judges, government agents and lawbreakers like Respondents.
12
Petition for Writ Certiorari

ARGUMENT
Appellant asks this Court to grant this writ petition
because the issues that he has raised are of substantial
importance. Supreme Court Rules 10 and 12. This writ concerns
decisions of California courts on federal issues and important
federal rights which are guaranteed by the U.S. Constitution.
The decisions of the California courts with respect to Patel are
inconsistent with the meaning of our nation since July 4, 1776.
Like the California Court of Appeal, the State court of last
resort (The California Supreme Court), also has departed from
the customary and usual norms of law practice. California courts
have sanctioned abuses by lower courts against individuals who
supported President Trump and judges appointed during his
tenure. This behavior runs directly counter to the messages of
Unity and Our Democracy championed by President Biden and
Vice President Harris during the 2021 Inauguration.
The supervisory power of the United States Supreme Court
is required over the California Supreme Court and all inferior
tribunals in California. Lower courts in California, starting from
the California Supreme Court down to the local municipal courts,
constantly disrespect our nation’s history and 245 years of our
heritage as Americans. These California courts have shown
disdain and outright contempt for people who do not share their
views. Citizens should not be forced into a choice between
following the law and adhering to orders which constitute the
mistakes of California judges. California courts pose a serious
threat to law and order. California judges hate President Trump.
13
Petition for Writ Certiorari

SUMMATION
More than 14 years have now passed since Patel’s Labor
Day 2006 marriage proposal at the U.S. Supreme Court to
Bhatia. Back then, in 2006 at that time in our Nation’s history,
President Obama spoke about there not being a “Red America”
and a “Blue America” but a “Purple America” that included all
Americans. However, since that time, in these intervening years,
the United States has truly been challenged like never before.
This Court does not need a reminder in how fragile our
democracy is or how precious this republic is since July 4, 1776.
However, judges in California and their partners (California
government agencies, such as Respondent) do need such a
reminder. Citizens in our nation have the right to support all of
our former, current and future Presidents — whether the name on
the Oval Office desk is George W. Bush, Barack H. Obama,
Donald J. Trump (or Hillary R. Clinton), Joseph R. Biden, Jr. (or
Kamala D. Harris, Esq). Lawyers also have certain inalienable
rights which neither a judge in California nor a government
agency may disparage. And that is the free right of any attorney
to respect and legitimize each and every member of this United
States Supreme Court — whether the name of his/her honor is:
Samuel A. Alito, Jr., Amy Coney Barrett, Stephen G. Breyer, Neil
M. Gorsuch, Elena Kagan, Brett M. Kavanaugh, John G. Roberts,
Jr., Sonia Sotomayor, or Clarence Thomas.
DATED: March 11, 2021

______
Anthony A. Patel
Plaintiff and Appellant
In Pro Per
14

Petition for Writ Certiorari

